SUPREME COURT OF GEORGIA
Case No. S20H0894
August 10, 2020

The Honorable Supreme Court met pursuant to
. adjournment.
The following order was passed.

RICO WALKER v. VANCE LAUGHLIN, WARDEN.
Upon consideration of the application for certificate of
probable cause to appeal the denial:6f habeas corpus, it is ordered
that it be hereby denied.
All the Justices concur.

Trial Court Case No. 18CV029

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

w

IN THE SUPERIOR COURT OF WHEELER COUNTY
___
STATE OF GEORGIA
RICO WALKER,
GDC 974743
PETITIONER,

§
§
§
§

VS

§

CIVIL ACTION NO: 18CV029

§

VANCE LAUGHLIN, WARDEN,
§
WHEELER CORRECTIONAL FACILITY §
DEFENDANTS
§
CERTIFICATE OF SERVICE
I, Janet Ashley, Deputy Clerk of the Superior Court of Wheeler County, Georgia, certify that I
have this day served the within and foregoing FINAL ORDER by mailing a true and accurate
copy of the same via electronic mail to the address on record, to the following.
Rico Walker, GDC 974743
Wheeler Correctional Facility
P. O. Box 466
Alamo, GA 30411

Vance Laughlin
Wheeler Correctional Facility
P. O. Box 466
Alamo, GA 30411

I further certify that I have served a true and accurate copy of the above document(s) to the
individual(s) below via electronic mail to the address on record:
Georgia Department of Corrections
State Offices South at Tift College
P.O.Box 1529
Forsyth, GA 31029

THE KING LAW GROUP
Daniel M. King, Jr., SAAG
P. O. Box 4329
Dublin, GA 31040

This the 29th day of January, 2020

DEPUTY CLE
RIOR COUR
WHEELER COUNTY, GEORGIA

■4 *

" heeler romrr y. geqrqi a

IN THE SUPERIOR COURT OF WHEELER COUNTY
STATE OF GEORGIA

F!C-

2020-JAN 29 ■ AM 10* 18

RICO WALKER,
Petitioner,
GDC No. 974743,

) )
)
)

' n

„/?
Lr-r u

tC-

j
(3fl

I'LFHK Slj;Ti-:r: - ”‘?-TT

) Habeas Corpus
) File No. 18CV029

v.
VANCE LAUGHLIN, Warden,
Respondent.

)
)
)
)

FINAL ORDER
Petitioner, RICO WALKER, filed the instant Application for Writ of Habeas Corpus on
April 3,2018 challenging the validity of his September 22,2016 Thomas County guilty plea.
Evidentiary hearings were held on October 1, 2018 and May 30,2019. After reviewing the
Petition, the entire record of the case, and applicable law, the Court makes the following
findings:

PROCEDURAL HISTORY
A Thomas County grand jury indicted Petitioner on charges of incest, child molestation,
aggravated child molestation, and sodomy on February 4, 2016. (Transcript of Habeas Corpus
Evidentiary Hearing held on October 1, 2018, hereinafter “HT,” pp. 50-54). Petitioner entered a
negotiated guilty plea on September 22, 2016 to the offense of incest and the State entered a
nolle prosequi to the remaining counts. (HT 55).
Iri his Application for Writ of Habeas Corpus, Petitioner raised the following grounds for
relief:
1. Failure to disclose evidence in violation of Brady. Specifically, Petitioner was not
consulted or informed of his case and evidence against him or the forensic examination
results which would have exonerated him;

Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029,
Wheeler County Superior Court
Page 1 of8

2. Petitioner was convicted on a void indictment; Specifically, the indictment omitted the
essential elements of venue and an exact date of the crime alleged;
3. The trial court abused its discretion by failing to advise Petitioner of his Bovkin rights
during a mass plea hearing; and,
4. Petitioner received ineffective assistance of counsel in that defense counsel failed in his
duties to file a motion to suppress illegal warrants, demur a defective indictment, and
advise Petitioner of the nature of the crime.

At the October 1, 2018 evidentiary hearing, attorney Ronald Beckstrom testified and
documentary evidence was admitted. The evidentiary portion of the case concluded on May 30,
2019 with additional testimony by attorney Ronald Beckstrom and the entry of additional
documentary evidence.

GROUND ONE

In Ground One, Petitioner alleges that he suffered a Bradv violation from the failure to
disclose evidence. Specifically, Petitioner was not consulted or informed of his case and
evidence against him or the forensic examination results which would have exonerated him.
The entry of a valid guilty plea waives all known or unknown defenses. Tollett v.
Henderson, 411 U.S. 258 (1973). “A plea of guilty and the ensuing conviction comprehend all of
the factual and legal elements necessary to sustain a binding, final judgment of guilty and a
lawful sentence. United States v. Broce. 488 U.S. 563 (1989). A defendant cannot raise
independent claims relating to the deprivation of rights which occurred before his entry of a
guilty plea, and can only attack the voluntary nature of his plea and the advice he received from
his attorney. Bradshaw v. Stump, 545 U.S. 175 (2005); Bums v. State. 291 Ga. 547 (2012);
Kennedy v. State. 319 Ga. App. 498 (2012).
Counsel testified that he obtained discovery from the State, reviewed the discovery with
Petitioner, and that there was no question that he obtained full discovery from the State. (HT 8).
Counsel testified that the forensic examination results were included in the discovery file.
(Transcript of Habeas Corpus Evidentiary Hearing held on May 30, 2019, hereinafter “HT2,” p.
Rico Walker v. Vance LaugHlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 2 of8

11). Contrary to Petitioner’s assertions, the forensic results did not exculpate Petitioner blit rather
were inconclusive in identifying the source. (HT2 12, 20). Counsel testified that the forensic
report was still damaging to Petitioner’s defense when coupled with the testimony of the victim.
(HT2 12). Counsel reiterated that he provided Petitioner with copies of discovery and reviewed
the discovery with Petitioner answering any questions he may have had. (HT2 14-15, 21). At the
guilty plea hearing, Petitioner affirmed that counsel had reviewed the case with him and that he
had received discovery. (HT 89). Therefore, Petitioner has failed to show that a Bradv violation
occurred as the forensic results in question were provided by the State to defense counsel who in
turn provided the documents to Petitioner.
Accordingly, Ground One provides no basis for relief.

GROUND TWO
In Ground Two, Petitioner alleges that he was convicted on a void indictment.
Specifically, the indictment omitted the essential elements of venue and an exact date of the
crime alleged.
The entry of a valid guilty plea waives all known or unknown defenses. Tollett v.
Henderson, 411 U.S. 258 (1973). “A plea of guilty and the ensuing conviction comprehend all of
the factual and legal elements necessary to sustain a binding, final judgment of guilty and a
lawful sentence. United States v. Broce. 488 U.S. 563 (1989). A defendant cannot raise
independent claims relating to the deprivation of rights which occurred before his entry of a
guilty plea, and can only attack the voluntary nature of his plea and the advice he received from
his attorney.- Bradshaw v.-Stuinp, 545 U.S. 175 (2005); Burns v. State. 291 Ga. 547 (2012);
Kennedy v. State. 319 Ga App 4QR (7019)
The indictment against Petitioner alleged in pertinent part:

COUNT 1
The Grand Jurors aforesaid, on their oaths aforesaid, in the name and behalf of the
citizens of Georgia, charge and accuse RICO RECHAE WALKER with the offense of
Incest for that the said accused in Thomas County, Georgia, between the 20th day of
May, 2014 and the 20 day of May, 2015, the exact date and time being unknown to
Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 3 of 8

the Grand Jury, but known to the accused, then and there did unlawfully engage in
sodomy with Asiana Bryant, accused’s stepdaughter, knowing that he is related to the
said stepdaughter by marriage, contrary to the laws of said State, the good order, peace,
and dignity thereof.
<
(HT 54)(emphasis in original). Contrary to Petitioner’s assertions, the indictment clearly include
a statement that venue lies in Thomas County. While the State did not provide an exact date, the
indictment did include a range of dates. Counsel testified in reviewing the case that the criminal
acts were alleged to have on multiple occasions over a range of time. A range of dates is not
improper where the State is unable to narrow the dates listed in the indictment. Blanton v. State.
324 Ga. App. 610 (2013); Boddie v. State. 327 Ga. App. 667 (2014)(range of dates alleged were
not material elements to the offense). The indictment against Petitioner included all the essential
elements for the offense. Therefore, Petitioner has failed to show that the indictment was void.
To the extent that Petitioner could have filed a special demurrer to narrow the range of dates in
the indictment, Petitioner waived this claim by pleading guilty to the charged offense.
Accordingly, Ground Two provides no basis for relief.

GROUND THRF.F,
In Ground Three, Petitioner alleges that the trial court abused its discretion by failing to
advise Petitioner of his Boykin rights during a mass plea hearing
A guilty plea must be voluntary, knowing, and intelligent’” in order to constitute a valid
plea. Raheemv. State, 333 Ga. App. 821 (2015). In Bovkinv. Alabama, the Supreme Court
clarified that a defendant pleading guilty must be advised of “the privilege against compulsory
self-incrimination, the right to trial by jury, and the right to confront one’s accusers.” 395 U.S.
238 (1969), Hayes v. State, 344 Ga. App. 248 (2018). Petitioner bears the burden of proving that
his plea was not voluntary, knowing, and intelligent. Leieune v. McLaughlin. 296 Ga. 291
(2014).
Counsel testified that he advised Petitioner of his constitutional rights, including the right
to a trial by jury, the right to confront witnesses, and the privilege against self-incrimination, and
that by pleading guilty Petitioner would waive those rights. (HT 13). Counsel testified that he

Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 4 of8

was satisfied that Petitioner understood those rights. (HT 13). Counsel further testified that it was
common in Thomas County to take mass pleas but that the trial court still advises the defendants
of their constitutional rights and asks each defendant if he understands said rights. (HT 13-14). In
addition^, counsel had Petitioner, sign a form acknowledging his rights. (HT 14). A review of the
transcript of the guilty confirmed that the trial court reviewed with Petitioner his Bovkin rights
including the right to remain silent, the right to a trial by jury, the right to testify and subpoena
witnesses to testify, and the right to cross-examine the State’s witnesses and Petition affirmed his
understanding of these rights. (HT 71-82). While the court reviewed these rights with Petitioner
during a mas£ proceeding, Petitioner affirmed his understanding of each of these rights and the
courtthen engaged in an individual colloquy.wjth.Petitioner. (HT 89),Therefore, Petitioner has
failed to prove the trial court failed to advise Petitioner of his Bovkin right or that his guilty plea
was not freely, knowingly, or intelligently entered.
Accordingly, (Ground Three provides no basis for relief.
GROUND FOUR
In,Ground Four, Petitioner alleges that he received ineffective assistance of counsel in
that defense counsel failed in his duties to file a motion to suppress illegal warrants, demur a
defective indictment, and advise Petitioner of the nature of the crime.'
The test for establishing ineffective assistance of counsel was set forth in Strickland v.
Washington, 466 U.S. 668 (1984). Under the Strickland two-prong test, Petitioner must show
that (1) the attorney s performance was deficient, meaning that counsel made errors so serious
that he was not functioning as counsel” as guaranteed by the. Sixth Amendment and (2) that this
deficient performance prejudiced the defense thereby depriving Petitioner of a fair trial with a
reliable result. In the context of a guilty plea, petitioner must “show that there is a reasonable
probability that, but for,counsel’s errors, he would not have pleaded guilty and would have
insisted on going to trial.” Hill v. Lockhart. 106 S.Ct. 366 (1985); Tillman v. Gee. 284 Ga. 416
(2008). Petitioner must overcome the presumption that counsel’s conduct “falls within the wide
range of reasonable professional conduct and that all significant decisions were made in the
exercise of reasonable professional judgment.” Brown v. State. 245 Ga. 277 (1987).
Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 5 of8

Petitioner was represented by attorney Ronald Beckstrom. (HT 44). Counsel graduated
from Florida State University law school and was admitted to the Georgia Bar in 1995. (HT 6).
-*

-5*'

Counsel initially worked as a general practitioner before eventually working strictly iri criminal
defense. (HT 6). In his practice, counsel regularly tries felony criminal cases. (HT 7). Counsel
testified that he met with Petitioner, reviewed discovery, and discussed the discovery with
Petitioner. (HT 7-8). Counsel testified that the evidence against Petitioner included statements'
that he destroyed a phone containing incriminating text messages, Petitioner admitted to
destroying the phone, the recovery of seminal fluid, and a similar transaction involving the same
victim. (HT 9-10). The State issued a plea offer to Petitioner but counsel testified that the district
attorney was inflexible in negotiating a resolution to the case: (HT 10). Based oh the evidence
and his consultation with Petitioner, counsel testified that he was unable to develop a theory of
defense. (HT 11). In accepting the guilty plea, counsel testified that Petitioner greatly reduced his
sentencing exposure. (HT 12). Despite anticipating difficulties at trial, counsel testified that he
was prepared for trial. (HT 13).
Petitioner has failed to show that counsel was ineffective for failing to file motions
relating to the warrants issued in his case.. Petitioner has failed to show that he had a meritorious
claim relating to the issuance of the warrants that would have led to the suppression of evidence
or a bar to prosecution or that, but for the alleged ineffectiveness of counsel, Petitioner would not
have pleaded guilty and would have insisted on proceeding to trial.
Counsel testified that he reviewed the indictment and saw no issues with said indictment.
(HT 14). As discussed supra, Petitioner has failed to show that the indictment was void. Counsel
further testified that the events in question were alleged to have occurred over a period of time.
(HT2 7). Petitioner has failed to show that the range of date's provided in the indictment were' '
improper or that a special demurrer would have been successful. Petitioner has not proffered any
possible defense to the offenses were alleged to have occurred over a period of a year. Had
Petitioner prevailed on a special demurrer, the State would have had the opportunity to re-indict
Petitioner with a narrower range of dates. Moore v. State. 319 Ga. App. 766 (2013). Therefore,
Petitioner has failed to establish that he received ineffective assistance of counsel by failing to
challenge the indictment or that he was prejudiced by the alleged deficiency. At no point has

Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 6 of 8

Petitioner shown that had counsel filed a demurrer he would not have pleaded guilty and would
have insisted on proceeding to trial.
Petitioner has not established that counsel did not review the nature of the charges with
him. Counsel testified that he full reviewed the terms of the plea with Petitioner and that
Petitioner affirmatively accepted the plea. (HT 12). At the plea hearing, Petitioner confirmed that
he had adequate time to meet with counsel and that he was satisfied with counsel’s
representation. (HT 90). Petitioner acknowledged that counsel had reviewed discovery with him
and had gone over the case with him. (HT 89). Correspondence between Petitioner and counsel
indicate that they reviewed discovery and the testimony indicates that Petitioner met with
counsel to review the case. Therefore, Petitioner has failed to show that counsel failed to review
the case with him or that, but for the alleged ineffectiveness of counsel, Petitioner would not
have pleaded guilty and would have insisted on proceeding to trial.
Accordingly, Ground Four provides no basis for relief.

ADDITIONAL GROUNDS
In his Brief filed subsequent to the close of evidence, Petitioner raises additional grounds
that he received ineffective assistance of counsel in that counsel failed to investigate his case or
inform him of sex offender registration requirements. However, these claims have been raised
after the close of evidence and Petitioner has not obtained leave of the Court to amend his
Petition. The Civil Practice Act applies to amendments to habeas corpus petitions. Giles v. Ford.
258 Ga. 245 (1988). A party’s unfettered right to amend his pleadings ceases upon the taking of
evidence. Jackson v. Paces Ferry Dodge. Inc.. 183 Ga.App. 502 (1987).
Accordingly, the additional grounds raised in Petitioner’s Brief provide no basis for
relief.

Rico Walker v. Vance Laughlin, Warden
Habeas No. : 18CV029
Wheeler County Superior Court'
Page 7 of8

CERTIFICATION
Petitioner received a copy of the transcript of the October 1, 2018 evidentiary hearing on
January 25,2019 and the May 30, 2019 evidentiary hearing on November 20, 2019. Copies of
the Sheriff’s Entry of Service Forms are attached hereto.

'

CONCLUSION

WHEREFORE, the instant Petition for Writ of Habeas Corpus is DENIED.

If Petitioner desires to appeal this Order, Petitioner must file a written application for
certificate of probable cause to appeal with the Clerk of the Supreme Court of Georgia within
thirty (30) days from the date of this Order. Petitioner must also file a Notice of Appeal with the
Clerk of the Superior Court of Wheeler County within the same thirty (30) day period.

The Clerk of the Superior Court of Wheeler County is hereby DIRECTED to mail a
copy of this Order to Petitioner, Petitioner’s attorney of record, Respondent, and Special
Assistant Attorney General Daniel M. King, Jr.
SO ORDERED, this Z? day of

,2020.

I t c

t:1

✓

^'Sarah F. Wall, Chief Judge
Wheeler County Superior Court

Cj "d&ys L&£'t

Rico Walker v. Vance Laughlin, Warden
Habeas No.: 18CV029
Wheeler County Superior Court
Page 8 of8

SHERIFFS ENTRY OF SERVICE _ SC-85-2
SHERIFFS ENTRY OF SERVir.F

^ i'.,

SC-8S-2

iscv.oaa-.

Civil Action No.

/)P7U

Date Filed

P

J-

Raaider from Clyea casifebeny Co., P.O. Sox 1187, CmfcietDa QA 30015. t<stXK^-i260

'

CLYDE CASTLEBERRY 00., COWHOTON, QA 90015

Superior Court
State Court
Juvenile Court

EK'
□

□

ItShilHA.
QxCd \linjins'

Georgia;

Attorney^ Address

□
□

Magistrate Court
Probate Court
.COUNTY

£ dc q-ti ma

Jenifer

Plaintiff
VS.

\i04\tlL
Namejand Address of Party to be Served.

'oAlki-p ■

AjCO. k)a/l-..
fitC"- .9'ulrnl^
l/JWov PffimjhfaiiJ)

« -^Defendant

Garnishee

SHERIFF’S ENTRY OF SERVICE
<

I have this day served the defendant
of the within action and summons.

cc
in

a

fc CD
VloinaJi. 'HtiHSttipl'1 Trtnn \\£o nr^O

personally with a copy. .

0V\

10 i IS -

I have this day served the defendant____________________________
<o

^
=>

by leaving a

copy of the action and summons at his most notorious place of abode in this County.
o

g □ Delivered same into hands of__________________________ ’’ _________
5
age, about
years; weight
pounds; height, about
z
defendant

.feet and

• s ^

Served the defendant __ __________________________

'2cc o

^

• by leaving a copy of the within action and summons with_________________________
“j—i

in charge of the office and place of doing business of said Corporation in this County.

§
* D
§
JSStath

L

03

-i-y^ *3E

Z

o

;

C

as

a:

~
rji
rn
21
^___^escribedi jjpfollows:
tincheydomicil^Eat thEJijssitlence of
ro cdo

50

8

I'O

.*

>r

2?

.-or; ■ •

tire
10----^^rporation
o
za
-d

cr» ,v. e ,
>

affidavit and summons on the defendant^) by posting a copy of the same to the door of the premises designated in said
^ P!SUn8 by ‘>epo,itin8 a true copy of same in the United States Mail, First Class in an envelope properly “dressed to the
“ * SUmm0nS, With <WleqUate P°Sta8e aff“ed therc0n ““8 “*• w
defendant(s) to answer said summons at the

fe
Diligent search made and defendant_______
z □ not to be found in the jurisdiction of this Court.

5z

This

day of

,20 JS_.

<<QY)|cl>

394

Cbirh

DEPUTY

F$ ENTRY OF SERVICE - SC-85-2

fteWto from Clydi CMMwiy OK, PA BoM 187. Cmkigtih, QA aoois • t-SOOeea.! 2S0

..: SHERIFFS ENTRY OF SERVICE

/

Civil Action No.
Date Hied

SC-85-2

. ■ CLYDecMfiveaB<Hvoo,eoviNaTON.(Maooi6

Superior Court
State Court
Juvenile Court

1*8 C/V Q

10 I

j2irf\i*w+o:

Magistrate Court
Probate Court

□
□ •
Georgia, {aShidjui
to Vkh 1 Uir
(LaOL

| jc\
.

Attorney^ Addreiafr

dem&r
\%qSccMart<L(&'

.□

□

COUNTY

Plaintiff
VS.

\loj\di

Name and Address of Party to be Served.
r- -

iQAW>sL-~>

■ Leo klolfov

1
Defendant .

ft-DC.:

y. •

Garnishee

SHERIFF’S ENTRY OF SERVICE
S
jg

I have this day served the defendant
of the within action and summons. ..

&/CO

LU

Q_

•
Sg

|

„

-------- ----------------------------------------------personally with a copy

Tvtxtptuipr tvrnn (uonr^ m jf

I have this day served the defendant

by leaving a

copy of the action and summons at his most notorious place of abode in this County.

§.□ Delivered same into hands of_____
age, about .■
.years; weight
defendant
^

i

_ described as follows:
pounds; height about

feet and__ _

33.

rn

. Served the defendant_______ ____________;_____ ______________
2 □
leaving a copy of the within action and summons with .
0.

in charge of the office and place of doing business of said Corporation in this County. !

cc

i

’

•

•~'

rv

i?

f ’

\

„ £0

-3

VO

m

o

____ aioqjoration
~o
*—3^
IN> m2
*•
o
sc .

V. o

'

5
2 D

Z

■

2
3
so

8

O

oi

rn

.z
o
p

<

'

A

>

A

-----------““
awenoamw oy posting a copy ot the same to the door of the premises designated in said
“
“? ”f BUCh P05*^8 by ‘Nwsitog ®'true copy of same in the United States Mail, First Class in an envelope properly addressed to die
t(s) a e address shown in said summons, with adequate postage affixedthereon containing notice to the defendant(s) to answer said gummons at the
place stated in the summons.
■

Diligent search made and defendant_______
□ not to be found in the jurisdiction of this Court

Thi^O^' day of

K)OlS

|©-&
deputy

.

Additional material
from this filing is
available in the
Clerk's Office.

